No. 19-55
IN THE SUPREME COURT OF THE UNITED STATES
JAMES W. RICHARDS, IV, PETITIONER
V.

BARBARA M. BARRETT,
SECRETARY OF THE AIR FORCE, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 23rd day of March 2020.
[See Attached Service Listi
As required by Supreme Court Rule 33.1(h), I certify that the document contain 4,979, words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 23, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
March 23, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefsUSDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0055
RICHARDS, JAMES W., IV
MATTHEW P. DONOVAN, ACTING SEC. OF THE
AIR FORCE, ET AL.

MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4782
MARK.C.BRUEGGER.CIV@MAIL.MIL

